   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




May 2, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Housing Solutions for the Southwest, Inc.
               (A-07-10-02767)


The attached final report provides the results of our limited scope review at Housing Solutions
for the Southwest, Inc. In accordance with the American Recovery and Reinvestment Act of
2009, the Office of Inspector General (OIG) will provide oversight of covered funds to prevent
fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-02767
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
REVIEW AT HOUSING SOLUTIONS
   FOR THE SOUTHWEST, INC.




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-07-10-02767
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services, administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

Housing Solutions for the Southwest, Inc. (HSSW), a private, nonprofit organization, is one of
four CAAs in Colorado. HSSW provides a comprehensive variety of services including
employment, education, emergency services, and training in the better use of available income.
During fiscal year 2009, DOLA awarded HSSW $148,846 in CSBG grant funds and a Recovery
Act grant award totaling $227,262. For fiscal year 2009, HSSW expended total Federal funds of
$903,911.

OBJECTIVE

Our objective was to assess HSSW’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe HSSW is financially viable and has the capacity to manage
and account for Federal funds and to operate its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to the financial management system,
allowability of costs, safeguarding of Federal funds, composition of the Board of Directors, data
quality and reporting, policies and procedures, and the whistleblower process.



                                                i
RECOMMENDATION

In determining whether HSSW is appropriately managing and accounting for the Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing HSSW’s ability to operate the CSBG program in accordance with Federal regulations.

GRANTEE COMMENTS

In written comments on our draft report, HSSW did not concur with two of our three findings
related to the financial management system; partially concurred with our findings related to
allowability of costs and policies and procedures; did not concur with our finding related to
safeguarding of Federal funds; and concurred with our findings related to the composition of the
Board of Directors, data quality and reporting, and the whistleblower process. HSSW also
provided information as to corrective actions it has taken since our review, as well as additional
information related to some of our findings.

Our draft report included two additional findings related to allowability of costs: a rental
assistance payment that lacked supporting documentation and payments for indirect costs that
also lacked supporting documentation. As part of its comments on our draft report, HSSW
provided us with supporting documentation for these costs as well as documentation showing
that it did not manage the housing development it owned.

HSSW’s comments, excluding seven attachments totaling 73 pages, are at the Appendix. We
have forwarded the attachments in their entirety to ACF.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing HSSW’s comments, we removed the allowability-of-costs findings related to the
rental assistance payment and the payment of indirect costs from this final report. We also
revised the applicable portion of another allowability-of-costs finding to reflect independent
management of the HSSW-owned housing development. Otherwise, nothing in HSSW’s
comments caused us to change our findings or our recommendation to ACF.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Colorado Department of Local Affairs ..........................................................1
              Housing Solutions for the Southwest, Inc......................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL MANAGEMENT SYSTEM ...............................................................3

          ALLOWABILITY OF COSTS..................................................................................4

          ADEQUATE SAFEGUARDING OF FEDERAL FUNDS ......................................5

          COMPOSITION OF THE BOARD OF DIRECTORS .............................................5

          DATA QUALITY AND REPORTING.....................................................................5

          POLICIES AND PROCEDURES .............................................................................6

          WHISTLEBLOWER PROCESS ...............................................................................6

          RECOMMENDATION .............................................................................................6

          GRANTEE COMMENTS AND OFFICE OF
            INSPECTOR GENERAL RESPONSE ................................................................6
               Financial Management System ......................................................................7
               Allowability of Costs .....................................................................................8
               Adequate Safeguarding of Federal Funds ......................................................8
               Policies and Procedures .................................................................................9

APPENDIX

          GRANTEE COMMENTS



                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services (OCS), administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Colorado Department of Local Affairs

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

Housing Solutions for the Southwest, Inc.

Housing Solutions for the Southwest, Inc. (HSSW), a private, nonprofit organization, is one of
four CAAs in Colorado. HSSW provides a comprehensive variety of services including
employment, education, emergency services, and training in the better use of available income.
During fiscal year 2009, DOLA awarded HSSW $148,846 in CSBG grant funds and a Recovery
Act grant award totaling $227,262. For fiscal year 2009, HSSW expended total Federal funds of
$903,911.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and to take
periodic physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27,



                                               1
the allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular (OMB) A-122, Cost Principles for
Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess HSSW’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of HSSW’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of
HSSW’s internal control structure. Rather, we reviewed only the internal controls that pertained
directly to our objectives. Our review period was March 1, 2009, through June 30, 2010.

We performed our fieldwork at HSSW’s administrative office in Durango, Colorado, during
August 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that HSSW is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed HSSW’s implementation of the grant awards for the Recovery Act funding;

   •    reviewed the findings related to the most recent State review, as well as the findings of
        the financial audit reports issued by HSSW’s independent auditor;

   •    reviewed HSSW’s policies and procedures related to the CSBG program;

   •    reviewed HSSW’s by-laws, minutes from the Board of Director (Board) meetings,
        composition of the Board, and organizational chart;

   •    performed audit steps to assess the adequacy of HSSW’s current financial systems; and

   •    reviewed HSSW’s audited financial statements and supporting documentation for the
        period of May 1, 2006, through April 30, 2009.




                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

Based on our assessment, we believe HSSW is financially viable and has the capacity to manage
and account for Federal funds and to operate its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to the financial management system,
allowability of costs, safeguarding of Federal funds, composition of the Board, data quality and
reporting, policies and procedures, and the whistleblower process.

FINANCIAL MANAGEMENT SYSTEM

Pursuant to 45 CFR § 74.21(b)(3), grantees must provide effective control over and
accountability of all funds, property, and other assets to adequately safeguard all assets.
Pursuant to 45 CFR § 74.21, grantees must maintain financial systems that provide for accurate
and complete reporting of grant-related financial data.

HSSW’s financial management systems did not always provide for accurate and complete
reporting of grant-related financial data. HSSW’s independent auditor identified problems with
HSSW’s ability to accurately record journal entry transactions in its accounting system. We also
found instances in which CSBG expenditures were not accurately recorded and reconciliations
not done timely. Specifically:

    •   HSSW’s OMB Circular A-133 audit for the fiscal year ended April 30, 2009, identified,
        as a material weakness, the fact that HSSW did not properly record and adjust several
        general ledger accounts on a regular basis and in preparation of the annual audit. 1 The
        independent audit report also identified, as a significant deficiency, the practice of using
        general journal entries to manually record cash receipts and invoicing, thereby increasing
        the occurrence of data entry errors. The independent audit reported that these data entry
        errors resulted in immaterial misstatements to the financial statements. To correct these
        misstatements, the independent auditor identified 27 adjusting journal entries totaling
        over $231,000, as communicated in a management letter to HSSW from the independent
        auditor, dated February 18, 2010. Most of these errors occurred due to misclassifications,
        double recording, and transactions that HSSW had not properly recorded in the
        accounting system. In addition, 59 percent of the adjusting entry errors were related to
        accounts receivable. HSSW’s independent auditor suggested that HSSW utilize the
        accounts receivable and cash receipts modules that could be purchased separately and
        added to HSSW’s existing accounting system software package. These add-on modules


1
  OMB Circular A-133 is entitled Audits of States, Local Governments, and Non-Profit Organizations. Hereafter we
refer to this audit in terms of the review conducted by HSSW’s independent auditor.




                                                       3
           would simplify the data entry of accounts receivable and cash receipt transactions,
           enabling clerks to perform these duties properly and thereby enabling HSSW to reduce
           the number of its coding errors and untimely recording of transactions.

      •    HSSW received a regular program year 2009 CSBG fund reimbursement of $4,500 in
           travel costs that were not recorded as CSBG expenditures in the accounting system.

      •    HSSW received a CSBG Recovery Act fund reimbursement of $2,189 for the
           September 2009 through June 2010 rent expense, but it recorded $219 of CSBG
           Recovery Act expenditures in the accounting system for this period.

      •    HSSW had not performed the bank reconciliation between its operating account and the
           accounting system in over two months. As of August 20, 2010, the last month for which
           HSSW had reconciled its operating account was May 2010.

ALLOWABILITY OF COSTS

Pursuant to OMB Circular A-122, Attachment A, Basic Consideration No. 2, allowable costs
must be adequately documented, and conform to any limitations or exclusions set forth in the
terms and conditions of the Federal award, to be allowable for reimbursement under Federal
awards.

We reviewed the direct and indirect costs claimed by HSSW under the CSBG Recovery Act
program and the regular CSBG program in program year 2009. Generally, the expenditures that
we reviewed were allowable. However, we found instances in which HSSW used CSBG funds
for unallowable or questionable costs that included costs with inadequate documentation and
costs paid to a related party. Specifically:

      •    HSSW received reimbursement for salary and fringe benefit costs that were not always
           adequately supported by timesheets. For example, HSSW received CSBG Recovery Act
           funds totaling $6,297 in April and May 2010. 2 However, the employee timesheets
           supported $5,739 in salary and fringe benefit costs for the same two-month period. The
           difference of $558 occurred because HSSW claimed more fringe benefits on its April and
           May 2010 pay requests than could be supported by (1) the percentage of time worked on
           the program and (2) the accounting records.

      •    HSSW used CSBG Recovery Act funds to pay a related party. As of the conclusion of
           our fieldwork, HSSW owned a low-income housing development, Southwest Horizon
           Ranch, which consists of 61 single-family rental units. HSSW used CSBG Recovery Act
           funds to pay Southwest Horizon Ranch $3,742 for the late rental payments of five
           households.


2
    As previously discussed, HSSW recorded $5,657 for these same expenses in the accounting system.




                                                         4
ADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

We reviewed HSSW’s May 2010 bank statements for six bank accounts. HSSW did not exceed
the $250,000 FDIC account limit that month. However, one of HSSW’s bank accounts was not
covered by FDIC deposit insurance. During May 2010 this account’s average daily balance was
almost $50,000. Funds that are not protected by FDIC are subject to an increased risk of loss in
the event of a bank failure.

COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board that fully participates in the development, planning, implementation,
and evaluation of the programs to serve low-income communities. The board should be
composed of one-third elected public officials, one-third representatives of the beneficiaries in
areas served by CSBG, and one-third members of business, industry, labor, religious, law
enforcement, education, or other major groups and interests in the community served.

HSSW’s Board had vacancies in 5 of its 15 Board positions. The Board lacked three
low-income representatives and two community officials or members.

DATA QUALITY AND REPORTING

OMB’s December 18, 2009, Updated Guidance on the American Recovery and Reinvestment
Act – Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates memorandum
(M-10-08 memorandum), simplified the manner in which job estimates are calculated and
reported. Specifically, the memorandum required recipients to report job estimates on a
quarterly, rather than cumulative, basis. As a result, recipients were no longer required to sum
various data on hours worked across multiple quarters of data when calculating job estimates. In
addition, recipients were no longer required to make a subjective judgment on whether jobs were
created or retained as a result of the Recovery Act. Instead, recipients would more easily and
objectively report on jobs funded with Recovery Act dollars. Recipients should have
implemented the updated methodology to the greatest extent possible for the January 2010
reporting period.

At the time of our review, HSSW had not updated its reporting methodology to reflect these
updated Federal guidelines. Specifically, HSSW’s reporting methodology did not conform to
OMB’s requirements to objectively report jobs funded with Recovery Act dollars. HSSW
funded two positions with Recovery Act dollars and each month it reported 2 full-time
equivalents (FTE) to DOLA for these two positions. Pursuant to OMB’s M-10-08
memorandum, HSSW should have calculated the FTE based on the hours worked on a quarterly
basis. For example, for the quarter ending June 30, 2010, HSSW reported 2 FTE each month for



                                                 5
a total of 6 FTE for the quarter. We recalculated the FTE based on the total hours of the jobs
funded with Recovery Act dollars, in accordance with OMB requirements. We determined that
HSSW should have reported .522 FTE in April, .473 FTE in May, and .363 FTE in June for a
total of 1.36 FTE for the quarter ending June 30, 2010.

POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

HSSW lacked written policies and procedures to address a number of aspects of its financial
system: monthly expenditure reports, year-end closeout reports, bank and general ledger
accounts reconciliations, miscellaneous income, approval of major expenditures, competitive
bids, monitoring of sub-recipients, conflicts of interest, and use of consultants.

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against an employee of an organization
awarded Recovery Act funds for disclosing to appropriate authorities any credible evidence of
(1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross
waste of covered funds; (3) a substantial and specific danger to public health or safety related to
the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant awarded or
issued relating to covered funds. Pursuant to section 1553(e) of the Recovery Act, any employer
receiving covered funds shall post notice of the rights and remedies provided for the protection
of employees under this section.

HSSW did not have a process established to communicate to officers, employees, and others
information concerning the rights and remedies provided by the Recovery Act for reporting
suspected instances of wrongdoing by HSSW or employees of HSSW.

RECOMMENDATION

In determining whether HSSW is appropriately managing and accounting for the Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing HSSW’s ability to operate the CSBG program in accordance with Federal regulations.

GRANTEE COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HSSW did not concur with two of our three findings
related to the financial management system; partially concurred with our findings related to
allowability of costs and policies and procedures; did not concur with our finding related to



                                                 6
safeguarding of Federal funds; and concurred with our findings related to the composition of the
Board, data quality and reporting, and the whistleblower process. HSSW also provided
information as to corrective actions it has taken since our review, as well as additional
information related to some of our findings.

Our draft report included two additional findings related to allowability of costs: a rental
assistance payment that lacked supporting documentation and payments for indirect costs that
also lacked supporting documentation. As part of its comments on our draft report, HSSW
provided us with supporting documentation for these costs as well as documentation showing
that it did not manage the housing development it owned.

After reviewing HSSW’s comments, we removed these two allowability-of-costs findings from
this final report and revised the applicable portion of another allowability-of-costs finding to
reflect independent management of the HSSW-owned housing development. Otherwise, nothing
in HSSW’s comments caused us to change our findings or our recommendation to ACF.

A summary of HSSW’s points of disagreement and our response follows. HSSW’s comments,
excluding seven attachments totaling 73 pages, are at the Appendix. We have forwarded the
attachments in their entirety to ACF.

Financial Management System

Grantee Comments

HSSW did not concur with our finding that it received a regular program year 2009 CSBG fund
reimbursement of $4,500 in travel costs that were not recorded as CSBG expenditures in the
accounting system. HSSW provided additional information showing that these travel costs were
recorded in the accounting system. HSSW also did not concur with our finding that it received a
CSBG Recovery Act fund reimbursement of $2,189 for the September 2009 through June 2010
rent expense but recorded $219 of CSBG Recovery Act expenditures in the accounting system
for this period.

Office of Inspector General Response

HSSW’s comments did not address our finding related to the data entry journal errors that had
been identified in HSSW’s OMB Circular A-133 audit. Moreover, the additional information
that HSSW provided regarding the $4,500 in travel costs indicated that these costs were recorded
under the Residential Weatherization program 3 rather than the CSBG program. With respect to
the $2,189 CSBG Recovery Act fund reimbursement, HSSW did not provide any additional
documentation to show that the expenses were correctly recorded in the accounting system.




3
 The Residential Weatherization program is federally assisted through the U.S. Department of Energy’s
Weatherization Assistance program.




                                                       7
Allowability of Costs

Grantee Comments

HSSW did not concur with the findings in our draft report that it (1) used CSBG Recovery Act
funds to make a $1,125 rental assistance payment that lacked supporting documentation and
(2) paid $6,693 with CSBG Recovery Act funds for indirect costs that lacked supporting
documentation. HSSW provided supporting documentation for both the rental assistance and
indirect-cost payments.

HSSW partially concurred with our finding that it received reimbursement for salary and fringe
benefit costs that were not always adequately supported by timesheets. HSSW did not agree
with the $558 difference cited in the report and stated that the actual amount was $444.

HSSW also partially concurred with our finding that it used CSBG Recovery Act funds to pay a
related party. Although HSSW owned the Southwest Horizon Ranch housing development, it
provided additional documentation to show that the development was managed by an
independent management company and that beneficiaries are approved for assistance by a grant
committee.

Office of Inspector General Response

Although in its comments on our draft report HSSW provided supporting documentation for the
$1,125 rental assistance payment and for the $6,693 in indirect costs, HSSW did not provide
support for these expenses to us prior to the issuance of our draft audit report. We have removed
both of these findings from this final report.

Our calculations of the salary and fringe benefit costs continue to indicate that the $558 amount
stated in our report is accurate. HSSW did not provide documentation to support its assertion
that the difference was $444.

With respect to the management of the Southwest Horizon Ranch housing development, we
revised our report to reflect independent management of the HSSW-owned housing
development. However, HSSW did not provide enough information for us to determine whether
the grant committee was independent.

Adequate Safeguarding of Federal Funds

Grantee Comments

HSSW did not concur with our finding that one of its bank accounts was not covered by FDIC
deposit insurance. HSSW stated that while this account is not FDIC-secured, it is covered by
bank securities.




                                                8
Office of Inspector General Response

In its comments, HSSW acknowledged that one of its bank accounts was not covered by FDIC
deposit insurance. However, HSSW did not provide documentation that its non-FDIC-insured
account was covered by bank securities. If in fact this bank account is securitized, the funds are
adequately safeguarded.

Policies and Procedures

HSSW partially concurred with our finding that it lacked written policies and procedures to
address the aspects of its financial system discussed earlier in this report. HSSW stated that it is
currently updating its policies and that it plans to have a certified public accountant review the
updated policies to ensure that they comply with Federal requirements and accounting standards.

HSSW did not state why it did not fully concur with this finding.




                                                 9
APPENDIX
                                                                                                        Page 1 of 5


                           APPENDIX: GRANTEE COMMENTS

        HOUSING SOLUTIONS FOR THE SOUTHWEST 

                                                295 Girard 

                                         DURANGO, COLORADO 81303 




                                                                                           Comm""'"Y P«tnet
                    PH: {97D) 259-108&                           FAX: {97D) 259-2037




January 29, 2011
Patrick J. Cogley
Department of Health and Human Services
Office of Inspector General
Region VII
601 East 12th Street
Room 0429
Kansas City, Missouri 64\06

RE: Report # A-07-10-02767

Dear Mr. Cogley,

Enclosed please find the written comments in response to the " Results of Limited Scope Review at Housing
Solutions for the Southwest, Inc". Please contact me if you have any questions.




Sil:
KimWdty       ~
Executive Director
Housing Solutions for the Southwest
970-259-1086 ext. 21
                                                                                                                    Page 2 of 5




HOUSING SOLUTIONS FOR THE SOUTHWEST RESPONSES TO DEPARTMENT OF HEALTH
AND HUMAN SERVICES REPORT # A-07-10-02767
January 29, 2011

FINANCIAL MANAGEMENT SYSTEM

Pursuant to 45 CFR § 74.21 (b )(3), grantees must provide effective control over and accountability of all funds,
property, and other assets to adequately safeguard all assets. Pursuant to 45 CFR § 74.21, grantees must maintain
financial systems that provide for accurate and complete reporting of grant-related financial data.
HSSW's financial management systems did not always provide for accurate and complete reporting of grant-related
financial data. HSSW's independent auditor identified problems with HSSW's ability to accurately record journal
entry transactions in its accounting system. We also found instances in which CSBG expenditures were not
accurately recorded and reconciliations not done timely. Specifically:
• HSSW's OMB Circular A-133 audit for the fiscal year ended April 30, 2009, identified, as a material weakness, the 

fact that HSSW did not properly record and adjust several general ledger accounts on a regular basis and in 

preparation ofthe annual audit. I The independent audit report also identified, as a significant deficiency, the practice 

of using general journal entries to manually record cash receipts and invoicing, thereby increasing the occurrence of 

data entry errors. The independent audit reported that these data entry errors resulted in immaterial misstatements to 

the financial statements. To correct these misstatements, the independent auditor identified 27 adjusting journal 

entries totaling over $231,000, as communicated in a management letter to HSSW from the independent auditor, 

dated February 18, 2010. Most of these errors occurred due to misclassifications, double recording, and transactions 

that HSSW had not properly recorded in the accounting system. In addition, 59 percent of the adjusting entry errors 

were related to accounts receivable. HSSW's independent auditor suggested that HSSW utilize the accounts 

receivable and cash receipts modules that could be purchased separately and added to HSSW's existing accounting 

system software package. These add-on modules would simplify the data entry of accounts receivable and cash 

receipt transactions, enabling clerks to perform these duties properly and thereby enabling HSSW to reduce the 

number of its coding errors and untimely recording of transactions. 


• HSSW received a regular program year 2009 CSBG fund reimbursement of$4,500 in travel costs that were not 

recorded as CSBG expenditures in the accounting system. 

Response: NOD-Concurrence. 

See attachments A-I, A-2 and A-3 


• HSSW received a Recovery Act CSBG fund reimbursement of$2,189 for the September 2009 through June 2010 

rent expense, but it recorded $219 ofCSBG Recovery Act expenditures in the accounting system for this period. 

Response: Non-Concurrence. 

The rent expense referred to above was the result of re-classifying mortgage interest as rent. Having decided 

this was misleading since HS has a mortgage (doesn't pay rent) I began submitting an Invoice for rent with 

our mortgage amortization schedule attached for backup documentation. 


• HSSW had not performed the bank reconciliation between its operating account and the accounting system in over 

two months. As of August 20, 2010, the last month for which HSSW had reconciled its operating account was May 

2010. 

Response: Concurrence. 

HS purchased the Bank Reconciliation module on 6.28.10 



ALLOWABILITY OF COSTS
                                                                                                               Page 3 of 5



Pursuant to OMB Circular A-I22, Attaciunent A, Basic Consideration No.2, allowable costs must be adequately
documented, and conform to any limitations or exclusions set forth in the terms and conditions of the Federal award,
to be allowable for reimbursement under Federal awards.
We reviewed the direct and indirect costs claimed by HSSW under the Recovery Act CSBG program and the regular
CSBG program in program year 2009. Generally, the expenditures that we reviewed were allowable. However, we
found instances in which HSSW used CSBG funds for unallowable or questionable costs that included costs with
inadequate documentation and costs paid to a related party. Specifically:

• HSSW used Recovery Act CSBG funds to make a $1,125 rental assistance payment that lacked supporting 

documentation. 

Response: Non - Concurrence. 

See Attachment B 


• HSSW received reimbursement for salary and fringe benefit costs that were not always adequately supported by 

timesheets. For example, HSSW received Recovery Act CSBG funds totaling $6,297 in April and May 2010.2 

However, the employee timesheets supported $5,739 in salary and fringe benefit costs for the same two-month 

period. The difference of$558 occurred because HSSW claimed more fringe benefits on its April and May 2010 pay 

requests than could be supported by (I) the percentage oftime worked on the program and (2) the accounting 

records. 

Response: Concurrence. 

However the difference in claimed fringe amounts to $444 not 5558 as reported above. 


• HSSW used Recovery Act CSBG funds to pay a related party. As of the conclusion of our fieldwork, HSSW 

owned and managed a low-income housing development, Southwest Horizon Ranch, which consists of61 single­

family rental units. HSSW used Recovery Act CSBG funds to pay Southwest Horizon Ranch $3,742 for the late 

rental payments of five households. 

Response: Concurrence and Non - Concurrence. 

HSSW does own but does not manage Southwest Horizon Ranch (HSSW). Please see attachment C, the 

Management Agreement with Pillar Property Services. Concerning possible preferential treatment of HSSW 

households for HSSW financial gain, HS has an Emergency Homeless Prevention Policy (attachment D) 

addressing the process of approving families for grant funds in emergency situations. Additionally, HS works 

closely with many managers of rental properties in our community, including all work-force housing rentals. 

When compared to a similar work-force housing development, HS assisted four households at Pinon Terrace, 

a 64 unit work-force housing development with CSBG Recovery Act funds. 


We also reviewed the supporting documentation, submitted by HSSW's sub-recipients, of both Recovery Act CSBG
funds) and regular CSBG funds. HSSW paid $6,693 with CSBG Recovery Act funds for indirect costs, claimed by a
sub-recipient over a seven-month period that lacked supporting documentation.
Response: Non - Concurrence.
The Southern Ute Community Action Program (SUCAP) a sub-grantee of HS, requires a 10% indirect cost
reimbursement for all grants they receive. Please see attached E, "Part 1V - Special Clauses" document that
is used by SUCAP to ensure this indirect cost. The indirect cost was also In the budget section of the proposal
approved by the Colorado Department of Local Affairs. Housing Solutions considers the 10% indirect cost to
be both reasonable and necessary to properly account for the grant funds.


ADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of Federal funds in insured
accounts whenever possible. Federal Deposit Insurance Corporation (FDIC) policy states that deposits owned by a
corporation, partnership, or unincorporated association are insured up to $250,000 at a single bank.
We reviewed HSSW'~ May 2010 bank statements for six bank accounts. HSSW did not exceed the $250,000 FDIC
account limit that month. However, one ofHSSW's bank accounts was not covered by FDIC deposit insurance.
                                                                                                             Page 4 of 5



During May 201 0 this account's average daily balance was almost $50,000. Funds that are not protected by FDIC
are subject to an increased risk of loss in the event of a bank failure.
Response: Non - Concurrence.
HSSW uses a repurchase (sweep) account in conjunction with the operating account. While this account is not
FDIC secured it is covered by bank securities. Tbe purpose of the account is to provide interest earnings on
money that would otherwise be sitting in the non-interest bearing operating account. HSSW disperses large
amounts of cash on a weekly basis to client services and the sweep account provides a product that reduces
tbe need for constant transfers of cash between the money market account and the operating account for daily
operations. Balances are managed according to cash flow projections.


COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the eSBG Act requires that all eSBG agencies administer the eSBG program through a tripartite
board that fully participates in the development, planning, implementation, and evaluation of the programs to serve
low-income communities. The board should be composed of one-third elected public officials, one-third
representatives ofthe beneficiaries in areas served by eSBG, and one-third members of business, industry, labor,
religious, law enforcement, education, or other major groups and interests in the community served.
HSSW's Board had vacancies in 5 of its IS Board positions. The Board lacked three low-income representatives and
two community officials or members.
Response: Concurrence.
In our small rural communities it is sometimes hard to find people to serve on non-profit boards. HSSW is not
the only agency in the region struggling to recruit new board members. Since this review though, we have
been successful in recruiting 2 new members representing the.beneficiaries served by CSBG. They will be
officially voted in at the next board meeting on February 17,2011. We have several names of potential new
members that we are actively vetting for recruitment.


DATA QUALITY AND REPORTING

OMB's December 18, 2009, Updated Guidance on the American Recovery and Reinvestment
Act - Data Quality. Non-Reporting Recipients. and Reporting ofJob Estimates memorandum (M-I 0-08
memorandum), simplified the manner in which job estimates are calculated and reported. Specifically, the
memorandum required recipients to report job estimates on a quarterly, rather than cumulative, basis. As a result,
recipients were no longer required to sum various data on hours worked across mUltiple quarters of data when
calculating job estimates. In addition, recipients were no longer required to make a subjective judgment on whether
jobs were created or retained as a result ofthe Recovery Act. Instead, recipients would more easily and objectively
report on jobs funded with Recovery Act dollars. Recipients should have implemented the updated methodology to
the greatest extent possible for the January 20 I 0 reporting period.
At the time ofour review, HSSW had not updated its reporting methodology to reflect these updated Federal
guidelines. Specifically, HSSW's reporting methodology did not conform to OMB's requirements to objectively
report jobs funded with Recovery Act dollars. HSSW funded two positions with Recovery Act dollars and each
month it reported 2 full-time equivalents (FTE) to DOLA for these two positions. Pursuant to OMB's M-10-08
memorandum, HSSW should have calculated the FTE based on the hours worked on a quarterly basis. For example,
for the quarter ending June 30, 2010, HSSW reported 2 FTE each month for a total of6 FTE for the quarter. We
recalculated the FTE based on the total hours of the jobs funded with Recovery Act dollars, in accordance with OMS
requirements. We determined that HSSW should have reported .522 FTE in April, .473 FTE in May, and .363 FTE
in June for a total of 1.36 FTE for the quarter ending June 30,2010.
Response: Concurrence.
Housing Solutions for the Southwest will now be using the M-IO-08 Memorandum for the Heads of Executive
Departments and Agencies to calculate FTE's on a quarterly rather than a cumulative basis. During the
CSBG I ARRA Grant period Housing Solutions created one FTE position when calculated during the entire
grant period. The Southern Ute Community Action Program (SUCAP) retained on FTE position when
                                                                                                                 Page 5 of 5




calculated during the entire grant period. The staff hours were not equally dispersed during each quarter of
the year and subsequently did not necessarily reflect one FTE at both of the agencies during any specific
quarter.


POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting policies and procedures
and maintain financial systems that provide for accurate and complete reporting of grant-related financial data,
effective control over grant funds, and allocation ofcosts to all benefitting programs.
HSSW lacked written policies and procedures to address a number of aspects of its financial system: monthly
expenditure reports, year-end closeout reports, bank and general ledger accounts reconciliations, miscellaneous
income, approval of major expenditures, competitive bids, monit«ing ofsub-recipients, conflicts of interest, and use
of consultants.
Response: Concurrence and Non - Concurrence.
Housing Solutions has been working on updating all financial system policies Including those listed above. We
have enclosed those updates here. Within the next 30 days we will be contacting with a CPA firm to do a
thorough review of all our policies and procedures to bring them up to date and compliant with current
accounting standards and federal requirements.
See Attachment F


WHISTLEBLOWER PROCESS

Section I 553(a) of the Recovery Act prohibits reprisals against an employee of a organization awarded Recovery
Act funds for disclosing to appropriate authorities any credible evidence of(I) gross mismanagement of an agency
contract or grant relating to covered funds; (2) a gross waste ofcovered funds; (3) a substantial and specific danger
to public health or safety related to the implementation or use ofcovered funds; (4) an abuse ofauthority related to
the implementation or use ofcovered funds; or (5) a violation of law, rule, or regulation related to an agency contract
(including the competition for or negotiation of a contract) or grant awarded or issued relating to covered funds.
Pursuant to section I 553(e) of the Recovery Act, any employer receiving covered funds shall post notice of the
rights and remedies provided for the protection of employees under this section.

HSSW did not have a process established to communicate to officers, employees, and others information concerning
the rights and remedies provided by the Recovery Act for reporting suspected instances of wrongdoing by HSSW or
employees ofHSSW.
Response: Concurrence.
HSSW did have notice of the WhlstIeblower Act posted at the facility. It was not easily accessIble though by
all employees. A policy was written and put into effect July 2010 and included in the Employee Handbook
(recently updated January 1,2011) and tbe notice was posted in all sections of the work place. Attachment G
